              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Property Disposals
Resolution  of Significant
                     at theFinding
                            Yucca
Investigation
Mountain   Project
              Recommendations




DOE/IG-0664
      -                                     September
                                            November 2002
                                                      2004
REPORT ON PROPERTY DISPOSALS AT THE YUCCA
MOUNTAIN PROJECT




TABLE OF
CONTENTS



                Property Disposals at Yucca Mountain

                Details of Finding ...................................................1

                Recommendations and Comments........................4

                Appendices

                1. Objective, Scope, and Methodology..................7

                2. Prior Reports .....................................................8

                3. Management Comments..................................10
PROPERTY DISPOSALS AT YUCCA MOUNTAIN


Property              The audit disclosed that property and inventory (property)
Disposals             disposals at the Yucca Mountain Project were not performed in
                      the most cost-beneficial manner. Specifically, the Office of
                      Civilian Radioactive Waste Management (OCRWM):

                           •    Gave property that was still usable and had a potential
                                residual value1 to the disposal contractor;
                           •    Inappropriately gave property belonging to another
                                Department organization to the disposal contractor; and,
                           •    Sold a drilling rig even though another Department site
                                needed the property to satisfy a mission requirement.

                                                    Usable Property

                      As a condition of its contract for disposal of excess property,
                      OCRWM surrendered title to a wide variety of equipment and
                      inventory items. Most notable among those items was a piece of
                      refurbished equipment known as a roadheader. This property – a
                      type of mining equipment used for drilling tunnels – was
                      purchased in 1999 for approximately $567,000. OCRWM added
                      several accessories costing $225,000 to the roadheader making the
                      total value $792,000. The disposal contractor subsequently listed
                      the roadheader for sale on the Internet without an asking price,
                      stating that it was in very good condition with only 165 hours of
                      use. We identified other roadheaders for sale on the Internet with
                      prices ranging from $225,000 to $523,000.

                      Two power centers and a conveyor belt feeder, which had never
                      been used, and a generator, which was listed in new condition,
                      were also given to the contractor for disposal. The two power
                      centers were initially purchased for $68,000 in 1998 and, at the
                      time of the disposal, could have appreciated to over $82,000 in
                      value. We estimated that the feeder, purchased for $60,000 in
                      1995, was valued at over $35,000 after identifying an 18-year old
                      feeder listed for sale. A new generator would cost $27,000 which
                      is the same amount paid for the generator in 1998. We located a
                      similar generator with over 9,000 hours of use for sale on the
                      Internet for $13,500.



                      1
                        The residual values are presented as rough order of magnitude estimates
                      only. They are primarily based on like kind property available for sale and
                      listed on the Internet as of May 2004. Since these estimates are based on
                      asking price only, they may not actually be achievable.

______________________________________________________________________
Page 1                                                  Details of Finding
                      OCRWM, through its contractor, also disposed of about 4,580 tons
                      of iron and steel, some of which was never used. Because
                      OCRWM had not performed an analysis of cost and quantities of
                      the metals prior to the sale to the disposal contractor, we used the
                      average market price for scrap metal during the time of disposal –
                      $161 per ton – to calculate that the estimated value of the iron and
                      steel would have been $737,000. After paying the costs for
                      loading, shipping, and radiation surveys, OCRWM could have
                      netted $29,000 by selling the iron and steel on its own.

                             Property Belonging to the National Nuclear Security
                                              Administration

                      Two diagnostics trailers, belonging to the Department's National
                      Nuclear Security Administration (NNSA), were also turned over to
                      the contractor for disposal. The trailers were used for recording
                      data when conducting various weapons tests – a function
                      completely outside the scope of OCRWM's Yucca Mountain
                      Project. The NNSA determined that the trailers were missing
                      when it conducted its physical inventory seven months after the
                      disposal. NNSA transferred ownership of the trailers to OCRWM
                      only after disposal of the trailers was discovered.

                                                Property Needed

                      Finally, a drilling rig that had been declared excess was sold
                      through the General Services Administration (GSA). While a
                      normal disposal procedure, OCRWM proceeded with the sale even
                      though it had agreed to sell the drilling rig to Bechtel Nevada. In
                      August 2002, Bechtel Nevada inquired about the drilling rig and
                      then, in January 2003, the Nevada Site Office made a formal
                      request that the drilling rig be transferred. According to OCRWM
                      officials, the formal request was not received; however, the
                      Nevada Site Office furnished us with a copy of the Transfer Order
                      for Excess Personal Property form supporting the agreement to sell
                      the property to Bechtel Nevada. Four months after this request,
                      OCRWM sold the drilling rig through GSA and received nearly
                      $67,000. Bechtel Nevada estimated that it would cost
                      approximately $200,000 to purchase a similar drilling rig and that
                      they did not have enough money in the budget to procure the item.

Property and          The uneconomic disposal of Yucca Mountain property occurred
Inventory             because normal disposition procedures were not followed.
Management            Specifically, OCRWM did not offer its excess property for reuse
                      within the program element, other Department organizations, or
                      other government entities or attempt to sell the property at auction.

______________________________________________________________________
Page 2                                                  Details of Finding
                      In addition, the claimed savings achieved by using a disposal
                      contractor were incorrect.

                      For example, OCRWM estimated that it would take a total of 66
                      hours per item to sell the 1,300 property items through normal
                      procedures. This estimate included ten hours per item to review
                      potential Department and Federal requirements, which equates to
                      over six staff years. Further, OCRWM duplicated the costs for
                      radiation surveys, sales, and loading by including 35 hours in the
                      66 hours for these processes and also showing them as separate
                      items when reporting the savings it achieved. Finally, OCRWM
                      cited a cost savings of $700,000 for annual preventative
                      maintenance costs. However, their annual preventative
                      maintenance costs for disposed property for the year prior to the
                      sale were only $61,000. OCRWM was unable to provide
                      documentation to support the estimates used in their reported cost
                      savings.

                      Officials also categorized the Yucca Mountain property as
                      potentially contaminated. Disposing of contaminated items is
                      generally more costly than disposing of uncontaminated items.
                      However, the disposal contractor identified only five items that
                      were actually contaminated out of more than 1,300 disposed items.

                      Poor property management practices by the Office of Repository
                      Development also contributed to flaws in the analysis prepared to
                      support the use of a disposal contractor. In particular, when the
                      time came to dispose of the property and make a decision on the
                      disposal methodology, OCRWM did not know the quantity or
                      value of its inventory. The Department's property and inventory
                      management practices require field elements and contractors to
                      maintain accurate and up-to-date accounting records to provide the
                      proper accountability for the Department's investment in property.
                      Specifically, physical inventories of capital equipment are required
                      at least every two years and at least once a year for inventory and
                      related property. In addition, the property and accounting records
                      must be reconciled and adjusted annually to physical quantities.
                      However, OCRWM was unable to accurately assess the condition
                      and value of its property because it did not:

                          •   Complete periodic physical inventories of its property;
                          •   Reconcile the property and accounting records;
                          •   Adjust the records to the physical quantities; and,
                          •   Update the property records to accurately reflect the
                              acquisition dates, value, and depreciation.


______________________________________________________________________
Page 3                                                  Details of Finding
Fund Recovery        With the uneconomic disposal of Yucca Mountain property, the
                     Department lost the potential to recover funds that could have been
                     used to satisfy pressing mission needs. The disposal contractor
                     currently in possession of the property is likely to realize a
                     considerable profit upon the sale of the property. These funds
                     might otherwise have been available for use on the Yucca
                     Mountain Project. We estimated a loss of at least $458,000 for the
                     items identified and the payment to the disposal contractor. Since
                     OCRWM had not properly accounted for its property, the total
                     impact to the Nuclear Waste Fund cannot be determined.

                     The Department may also incur additional expenses to purchase
                     items already in its inventory. Specifically, the other Department
                     site may have to purchase a drill rig to replace the one sold by
                     OCRWM.


RECOMMENDATIONS      We recommended the Director, Office of Civilian Radioactive
                     Waste Management, assure that property management personnel:

                         1. Follow the Department's normal property disposition
                            procedures, to include:

                                a. Offering property at fair market value to other
                                   Department or government programs; and
                                b. Selling any remaining property at auction.

                         2. Accurately prepare and document cost savings used to
                            support future property disposal decisions.

                         3. Follow the Department's property and inventory
                            management requirements when managing property, to
                            include:

                                a. Conducting physical inventories, reconciling the
                                   property and accounting records, and making the
                                   necessary adjustments to accounting and physical
                                   property records; and
                                b. Accurately recording property in property records.


MANAGEMENT           The Deputy Director, Office of Repository Development, concurred
REACTION             with the recommendations and agreed to implement corrective
                     actions to ensure they are part of the overall approach to property
                     management in the future. However, OCRWM believed that
                     prior to the Office of Inspector General (OIG) review, it had

______________________________________________________________________
Page 4                                    Recommendations and Comments
                     actively begun taking significant actions as a result of the
                     Performance Assessment Team review that identified the need for
                     sweeping reform in contractor property management. Further,
                     OCRWM did not concur with the context of some of the OIG's
                     conclusions in the report.

                     Specifically, OCRWM believed that using the disposal contractor
                     was the most cost effective of various alternatives evaluated and
                     was the best option available to address the type of situation that
                     existed at Yucca Mountain. OCRWM stated that current
                     OCRWM management was faced with an excess property
                     inventory backlog that had accumulated over a 20-year period.
                     Closure of other Department sites was expedited in the mid-
                     1980's through the transfer of large quantities of excess equipment
                     and materials to Yucca Mountain, which was managed by the
                     Nevada Test Site. The intent was to use the property at Yucca
                     Mountain, but changes in technical scope eliminated the need for
                     much of the material. After years of non-use and harsh exposure,
                     the property was in such poor condition that OCRWM recognized
                     that the majority of the property had little value beyond scrap.
                     The equipment that did have some residual value was limited due
                     to the remote location, condition, age and lack of recorded
                     maintenance.

                     Department regulations also require radiological surveys to be
                     conducted prior to release of the property. OCRWM believed that
                     the radiological surveys would have cost the program over a
                     million dollars, which exceeded any estimated value of the
                     property. Finally, OCRWM disagreed with the OIG estimate of
                     scrap metal prices.

                     Management's verbatim comments can be found in Appendix 3 of
                     this report.

AUDITOR              Management's proposed actions are generally responsive to our
COMMENTS             recommendations. However, while OCRWM indicated that it had
                     already implemented significant actions, we did not find
                     information supporting an improvement in property management.
                     Other than using the disposal contractor, no significant actions by
                     OCRWM were evident during our audit. For example, OCRWM
                     said it had conducted physical property inventories but, other than
                     the results of a sensitive property inventory done in 2001,
                     OCRWM had no documentation showing the results of the
                     inventories. Bechtel SAIC conducted an inventory in 2002, but
                     had not finished reconciling the property and accounting records as
                     of September 2004.

______________________________________________________________________
Page 5                                    Recommendations and Comments
                     Regarding management's comments on the context of the report,
                     we noted that during the audit, OCRWM personnel informed us
                     on several occasions that the disposal contractor was the best
                     alternative. However, we found errors in the cost analysis
                     OCRWM prepared in support of this action. Further, OCRWM
                     had no supporting documentation to show how they made the cost
                     determinations and did not have documentation for the estimated
                     radiological survey costs. Additionally, OCRWM could not
                     provide the estimated value of the property since some of the
                     property was not included in the inventory and other property was
                     included with incorrect acquisition costs, dates, and condition
                     codes. With regard to the poor condition of the disposed
                     property, we found that, contrary to OCRWM's attestation, over
                     70 percent of the property assigned to Bechtel SAIC was less than
                     10 years old and still had value. When determining the potential
                     net return on the scrap iron and steel, we used average prices
                     during September 2003 through December 2003, which was the
                     period of time that most of the scrap iron and steel was removed
                     from Yucca Mountain.




______________________________________________________________________
Page 6                                    Recommendations and Comments
Appendix 1
______________________________________________________________________

OBJECTIVE            The object of our audit was to determine whether the property
                     disposals at the Yucca Mountain Project were executed in a
                     method most beneficial to the Government.

SCOPE                The audit was performed from January to September 2004 at the
                     Nevada Site Office and Office of Repository Development in Las
                     Vegas, Nevada, as well as the Nevada Test Site, in Mercury,
                     Nevada, and Yucca Mountain in Beatty, Nevada. The scope of the
                     audit included a review of excess personal property disposals for
                     calendar year 2003.

METHODOLOGY          To accomplish the objective, we:

                         •   Reviewed Federal and Department policies related to
                             property management;

                         •   Analyzed records related to property disposals in 2003;

                         •   Interviewed cognizant Department and contractor
                             personnel; and,

                         •   Assessed internal controls and performance measures
                             established under the Government Performance and
                             Results Act of 1993.

                     The audit was performed in accordance with generally accepted
                     Government auditing standards for performance audits, and
                     included tests of internal controls and compliance with laws and
                     regulations to the extent necessary to satisfy the objective of the
                     audit. Specifically, we tested controls for property disposals.
                     Because our audit was limited, it would not necessarily have
                     disclosed all internal control deficiencies that may have existed at
                     the time of our audit. We did not rely on computer-processed
                     data to accomplish our audit objective since OCRWM's records
                     did not accurately reflect the property that was disposed.

                     Management waived the exit conference.

                     .




Page 7                                           Objective, Scope, and Methodology
Appendix 2
______________________________________________________________________



                                 PRIOR AUDIT REPORTS


Office of Inspector General Reports

   •   Transfer of Excess Personal Property from the Nevada Test Site to the Community
       Reuse Organization (DOE/IG-0589, March 2003). The audit disclosed that Nevada's
       personal property transfer practices did not strike an appropriate balance between the
       effort to assist community development and the need to assure that Federal taxpayers
       received reasonable consideration for the property transferred to the Community Reuse
       Organization (CRO). In addition, Nevada made little effort, if any, to determine the
       current market value of the property provided to the CRO, nor did it confirm that the
       equipment's ultimate use would be for purposes directly related to developing the
       economies of the communities in and around the Nevada Site Office.

   •   Inspection on the Management of Excess Personal Property at Lawrence Livermore
       National Laboratory (INS-O-02-01, November 2001). The inspection disclosed
       weaknesses in Livermore's compliance with Department Property Management
       Regulations regarding high-risk personal property, reutilization screening of personal
       property, and public sales of surplus personal property. For example, Livermore program
       officials have not performed high-risk reviews of personal property items before the
       items were processed into Livermore's reutilization and disposal program. Also,
       Livermore had not recorded all reportable excess personal property items in the Energy
       Asset Disposal System for Department-wide reutilization screening.

   •   Management Challenges at the Department of Energy (DOE/IG-0626, November 2003).
       The report identified that the Department has traditionally faced challenges with contract
       administration and the OIG continues to consider it a management challenge. Further,
       the OIG identified the need for improvement in the oversight of community development
       activities.

   •   Property and Facilities at Grand Junction (WR-B-00-02, December 1999). The OIG
       found that the Albuquerque Operations Office made premature decisions to transfer
       property and facilities in Grand Junction, Colorado, to a local community entity.
       Management made premature decisions without the benefit of complete analysis to
       support its decisions. Further, Management did not fully determine if other agencies had
       an interest in using the unneeded facilities, consider its own future needs, and did not
       determine the market value of the site.




Page 8                                                                            Prior Reports
Appendix 2
______________________________________________________________________



Office of Civilian Radioactive Waste Management Related Reviews

   •   Property Management System Review (January 18, 2002). The Office of Quality
       Assurance Program Assessment Team (PAT) identified an overall weak contractor
       property system for acquiring, storing, managing and controlling equipment, supplies and
       materials. Specifically, the PAT conducted a sample of property items and found that
       property could not be located and acquisition costs recorded in the property records could
       not be supported by documentation in the files. Further the property records contained
       incorrect or no serial numbers.

       Additionally, the PAT found the contractor could procure supplies and materials when
       they were already on hand since there was no assurance that the supply function was
       operated effectively and efficiently to protect Government assets. For example, the PAT
       found that no inventory records existed for materials that were stored in a warehouse;
       items purchased in 1996 were never used; materials were found in their original
       packaging; and items stored in box cars, trailers and storage units were not inventoried.




Page 9                                                                            Prior Reports
Appendix 3




Page 10      Management Comments
Appendix 3




Page 11      Management Comments
Appendix 3




Page 12      Management Comments
Appendix 3




Page 13      Management Comments
                                                                    IG Report No.: DOE/IG-0664

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
